                                                                  Issue Date
                                                                     June 11, 2009
                                                                  Audit Report Number
                                                                     2009-AT-1007




TO:        Charles T. Barnett, Director, Nashville Program Center, Office of Public
             Housing, 4LPH


           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: The Chattanooga Housing Authority Mismanaged Its Finances

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Chattanooga Housing Authority’s (Authority) financial operations
             after the U.S. Department of Housing and Urban Development (HUD), Office of
             Public Housing, Tennessee State Office, informed us of the Authority’s
             deteriorating financial condition. We began with a review of the Authority’s
             development activities but expanded the review based on our survey results.


 What We Found


             The Authority, with the exception of $49,316 in ineligible expenses, generally
             complied with HUD requirements with respect to its development activities.
             However, its deteriorating financial condition led its management to use restricted
             funds to cover excessive general operating expenses. In addition, management
             unnecessarily expended scarce resources during a time of financial crisis and
             failed to provide adequate financial reporting to its board. Authority management
           (1)    Used more than $788,000 in Section 8 housing assistance funds for
                  Authority operating expenses in violation of Section 8 regulations,
           (2)    Used $1.2 million in restricted Fannie Mae loan proceeds to cover operating
                  expenses in violation of the executed loan agreement,
           (3)    Paid employee bonuses of more than $210,000 and a cost of living
                  adjustment of more than $180,000 in conflict with its own policies,
           (4)    Approved more than $193,000 in excessive severance payments during two
                  2008 reductions in force in conflict with its own policies,
           (5)    Used $49,316 in public housing operating funds to pay non-HUD expenses
                  in violation of annual contributions contract requirements, and
           (6)    Liquidated more than $4 million in investments without adequately
                  informing the board, in violation of both HUD and Authority requirements.

           As a result, the Authority misused more than $1 million in funding that could
           have been used to carry out its mission of providing families with decent, safe,
           and sanitary housing.

What We Recommend


           We recommend that you require the Authority to

                 Repay more than $1 million in ineligible costs,
                 Support or repay from non-federal funds excessive performance-based
                 compensation and cost of living adjustment payments totaling $402,862, and
                 Develop and implement internal controls over the use of HUD funds to ensure
                 that funds are expended only for eligible expenses.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the finding with Authority officials during the audit. We provided a
           copy of the draft report to the Authority on May 19, 2009, for its comments and
           discussed the report with Authority officials at an exit conference on May 26,
           2009. The Authority provided its written comments to our draft report on June 1,
           2009. The Authority generally agreed with the contents of the report. However,
           the Authority asked that it not be required to reimburse its program for ineligible
           costs since it had very limited non-federal funds.

                                             2
The complete text of the auditee’s response, along with our evaluation of that
response, can be found in appendix B of this report.




                                 3
                         TABLE OF CONTENTS

Background and Objective                                                             5

Results of Audit
      Finding 1: The Authority Mismanaged Its Finances                               6

Scope and Methodology                                                                22

Internal Controls                                                                    23

Appendixes
   A. Schedule of Questioned Costs                                                   25
   B. Auditee Comments and OIG’s Evaluation                                          26
   C. Schedule of Liquidated Investments and Use of Funds – June 30, 2006, through   31
      July 24, 2007




                                            4
                       BACKGROUND AND OBJECTIVE

The Chattanooga Housing Authority (Authority) was chartered in 1938 pursuant to the
Tennessee Housing Authorities Law. Its primary objective is to provide low-income housing to
the citizens within Chattanooga, Tennessee, and the surrounding area in accordance with its
annual contributions contract with the U.S. Department of Housing and Urban Development
(HUD).

As of December 31, 2008, the Authority administered 2,756 occupied public housing units and
2,781 housing choice vouchers in the city and vicinity of Chattanooga. The Authority received
HUD public housing grants totaling more than $28.9 million in 2007 and $27.5 million in 2008.

A seven-member board of commissioners appointed by the mayor of Chattanooga governs the
Authority. Eddie Holmes is the board chairman, and Elizabeth McCright is the executive
director. HUD’s Nashville, Tennessee, Office of Public Housing is responsible for overseeing
the Authority.

During 2008, the Chattanooga Times Free Press ran a series of newspaper articles related to the
Authority’s financial troubles. The articles highlighted the Authority’s ongoing financial
difficulties leading up to the resignations of both the executive director and the chief financial
officer. At the request of HUD’s Nashville, Tennessee, Office of Public Housing, HUD’s Real
Estate Assessment Center (REAC) conducted a review of the Authority’s financial condition.
REAC issued a financial recovery plan on July 3, 2008, detailing the Authority’s troubling
financial condition and made recommendations as to how it could be improved, including

                   Further staff reductions,
                   Additional reductions in administrative expenditures,
                   Repaying or gaining a repayment waiver from HUD for misused Section 8
                   funds, and
                   Selling its excess properties to generate working capital.

The Authority’s last audited financial statements were for the fiscal year ending December 31,
2006. The Authority’s independent public accountant is in the process of completing the 2007
and 2008 audits. According to a September 17, 2008, HUD waiver request, the Authority
delayed obtaining the 2007 audit, because it terminated the contract with its former auditor.
HUD denied the waiver request on October 16, 2008.

Our audit objective was to determine to what extent funds subject to an annual contributions
contract were used to benefit non-HUD development activities or were otherwise inappropriately
disbursed.



                                                 5
                                 RESULTS OF AUDIT

Finding 1: The Authority Mismanaged Its Finances
The Authority mismanaged its finances. To cover excessive low income public housing
operating expenses, Authority management misused Section 8 housing assistance funds and
proceeds from a Fannie Mae development loan. In addition, management (1) paid excessive
amounts to its employees for performance-based compensation and cost of living adjustments,
(2) paid excess severance to laid-off employees, (3) used restricted program income to pay
employee separation pay, and (4) paid ineligible expenses from its general fund for non-HUD
development activities. Management also failed to inform its board regarding the liquidation of
more than $4 million in investments or provide the board other financial detail that could have
alerted it to the impending financial crisis. These conditions occurred because management
failed to follow HUD and its own requirements. As a result, the Authority misused more than
$1 million in funding that could have been used to carry out its mission of providing decent, safe,
and sanitary housing for low-income families.



There Were Signs of Impending
Financial Crisis

               During the period covered by our audit, there were clear signs that the Authority
               was headed for a financial crisis. Because management failed to rein in out-of-
               control operating expenses, the Authority’s financial condition steadily
               deteriorated. When the Authority’s financial condition became critical during
               2007, management misused both HUD funds and proceeds from a Fannie Mae
               development loan to keep the Authority functioning.

               Low-Income Housing Operating Deficits Ballooned
               From 2003 through 2007, the Authority’s low-income housing program operated
               at an average annual loss of $1.55 million. This condition occurred despite fairly
               constant operating subsidy and operating revenue (see table 1). In 2007, the
               Authority experienced its highest level of both operating subsidy and operating
               revenue, yet it also experienced its largest operating deficit, more than $2.6
               million (see table 2).




                                                6
                                  Table 1




                                     Table 2


As the Authority’s operating deficits increased, management depleted all of its
low-income public housing reserves, liquidating more than $4 million between
December 2003 and December 2007 (see table 3). As the table also shows,
during 2007, the Authority liquidated its remaining reserves to cover operating
expenses, while its operating deficit increased dramatically.

                                 7
                                         Table 3

Management Raided Additional Funding Sources
With its reserves completely depleted by the end of July 2007, the Authority
needed another source of funds to cover its operating expenses. Authority records
show that management reacted by making substantial ineligible transfers of
Section 8 housing assistance funds to the general fund. In total, management
transferred more than $788,000 during 2007, most of which was transferred from
August through December. After discontinuing the ineligible transfer of Section
8 funds, management began to cover operating expenses using restricted proceeds
from a Fannie Mae development loan. In early 2008, management made three
transfers totaling $1.2 million from the Fannie Mae development loan to its
general fund.

Management Eventually Took Action to Address Out-of-Control Costs
With all available funding sources exhausted, management finally took action to
address escalating administrative expenses, a significant cause of its financial
problems (see table 4). The Authority conducted two reductions in force in 2008,
laying off 59 full-time employees. The Authority later reduced its staff by an
additional five full-time employees, bringing the total reductions in force to 64.
The Authority estimated that it saved more than $2.9 million in annual salaries
and benefits via the staff reductions. It is clear that escalating administrative cost
was a preventable yet major factor in mounting operating deficits.




                                  8
                                                   Table 4


Management Misled the Board
as to the Use of Its Low Income
Public Housing Reserves

             As table 3 shows, the Authority liquidated all of its low-income public housing
             reserves, more than $4 million from 2003 through 2007. From June 30, 2006,
             through July 24, 2007, it liquidated more than $2.5 million in reserves. As a
             result, it had no reserves for future unforeseen expenses or funding shortfalls.

             During the November 13, 2007, board meeting, the former chief financial officer
             reported to the board, “The bottom line shows a loss of $2.5 million, which
             represents a deliberate use of operating reserves to bring the sites up to REAC
             standards rather than risk having HUD recapture the funds.” However, Authority
             documentation indicated that management used the majority of the reserve funds
             for operating expenses (see appendix C). Although this is an eligible use of
             reserves, it contradicts the information management provided to the board.

             Management also admitted that reserve funds were used for operating expenses.
             The former executive director stated that he authorized the use of only $1 million
             in reserves for bringing units up to REAC standards and was taken by surprise
             when the reserves were completely liquidated to cover other operating expenses.
             When asked for what the reserves were used, the former chief financial officer
             stated, “Because we didn’t have money to pay bills and meet payroll,”
             contradicting statements made to the board.


                                              9
Management Misused Section 8
Housing Assistance Funds


            The Authority administers HUD’s Section 8 Housing Choice Voucher program.
            The program allows the Authority to provide housing choice vouchers to eligible
            families. The families use the vouchers to obtain housing from participating
            qualified landlords. Each year, HUD provides funds to the Authority to pay
            housing assistance to the selected landlords on behalf of the family covered by a
            particular voucher. In addition, HUD pays the Authority an administrative fee for
            administering the program.

            Section 1.4(b) of the Authority’s executed Section 8 annual contributions contract
            requires that HUD’s annual contribution be used to cover housing assistance
            payments made by the Authority and the amount of Authority fees for program
            administration. In addition, 24 CFR (Code of Federal Regulations) 982.157(b)(1)
            requires that Section 8 program receipts only be used for housing assistance
            payments and Authority administrative fees.

            During 2007, management used a portion of its Section 8 housing assistance
            funds to help cover non Section 8 program operating expenses. The Authority
            had no Section 8 administrative fee reserves at the time. In August 2007, with its
            low-income public housing reserves totally liquidated, management’s use of
            Section 8 housing assistance funds accelerated. In addition to the Section 8
            administrative fees allowed by HUD, the authority transferred more than
            $788,000 in restricted Section 8 housing assistance funds to the general fund to
            pay non Section 8 program operating expenses. The bulk of the transfers took
            place between August and December of 2007.

            The Authority’s former executive director stated that he was unaware that Section
            8 funds were being used by the former chief financial officer to cover the
            Authority’s low- income public housing operating expenses. The Authority’s
            current executive director, who was the Authority’s chief operating officer at the
            time, informed the former chief financial officer that using Section 8 funds in this
            manner was ineligible. The former executive director stated that if the chief
            operating officer had not intervened, he believed that the Authority would have
            “spent it all.”

            The chief financial officer contacted HUD regarding the eligibility of such use of
            Section 8 funds. On February 25, 2008, HUD responded that the Section 8 funds
            in question were restricted to paying housing assistance and could not be used for
            other programs. It is unclear whether the chief financial officer was aware that

                                             10
            the funds were restricted, yet intentionally used them, or simply lacked adequate
            program knowledge to ensure that the Section 8 funds were used as required.

            As a result of management’s misuse of Section 8 funds, it had fewer funds with
            which to carry out its mission of providing rental subsidies on behalf of families
            to acquire decent, safe, and sanitary housing.

Management Claimed to Have
Repaid Some Misused Section 8
Funds

            During our review, the Authority claimed to have repaid a portion of the misused
            Section 8 funds. While attempting to determine the amount of repayment, we
            found that the Authority did not account for its various voucher programs as
            required.

            In addition to the Section 8 Housing Choice Voucher program, the Authority
            participated in HUD’s Shelter Plus Care, Disaster Voucher, and Moderate
            Rehabilitation Single Room Occupancy programs.

            The Authority deposited all of the programs’ respective administrative fees into
            one account, thus losing their individual identities. The commingled
            administrative fees were then transferred to the general fund and used for
            Authority operating expenses, which made it difficult to determine the exact
            amount of administrative fees that were eligible to be used to repay the Section 8
            Housing Choice Voucher program. For example, HUD requires (PIH (Office of
            Public and Indian Housing) Notice 2007-26(r)) that Disaster Voucher program
            funds not be used for other activities or costs. HUD further requires that these
            funds remain separate and distinct from the Authority’s regular voucher program
            in terms of the source and use of funding. Thus, since the various Section 8
            programs have differing requirements, it is vital that the Authority separately
            account for the programs.

            Due to the accounting method used by the Authority with respect to its
            administrative fees, at the time of our review, neither we nor Authority staff could
            determine the exact amount of funds that the Authority had repaid its Section 8
            program.




                                             11
Management Misused $1.2
Million in Fannie Mae Loan
Proceeds

                In 2007, the Authority entered into a development agreement to partner in a non-
                HUD development referred to as Mayfair on Market. The project was designed to
                be a $15.9 million mixed-use development consisting of 58 residential units,
                above-ground floor retail space, and underground parking. The agreement
                required the Authority to obtain a $3.65 million loan from Fannie Mae and loan
                these funds to the developer entity. The developer was to repay the loan with
                interest and make available to the Authority 18 of the completed residential units
                at a reduced cost. In December 2007, the Authority obtained the $3.65 million
                loan from Fannie Mae. The loan documents restricted use of the funds to this
                development only.

                As discussed above, the Authority’s financial condition deteriorated during 2007,
                becoming critical in early 2008. Operating expenses were mounting, the
                Authority had used all of its reserves, and bills were going unpaid.1 Instead of
                addressing the cause of the problem, management used the restricted proceeds
                from the Fannie Mae loan to cover low-income public housing operating
                expenses. In February 2008, management made three wire transfers totaling $1.2
                million from the Mayfair on Market account to the Authority’s general fund.

                The former executive director stated that he knew it was wrong to use the Fannie
                Mae loan proceeds for operating expenses but intended to repay the loans with
                anticipated operating subsidy and capital fund program grant funds. Given the
                Authority’s dire financial condition, it was not reasonable to assume that it could
                have repaid the $1.2 million loan and continued to operate.

                Since the Authority breached the terms of the loan and security agreement, Fannie
                Mae found it to be in default. As of March 2009, it was negotiating with Fannie
                Mae regarding how to cure the default.




1
 From December 31, 2006, to December 31, 2007, the Authority’s accounts payable account grew from $491,285 to
$710,542, an increase of 44.6 percent.
                                                     12
Management Paid Excessive
Employee Compensation at a
Time of Financial Crisis

            Despite the financial condition of the Authority, management took action that
            unnecessarily increased employee compensation costs. In late November of 2007,
            management increased its costs by $402,862 when it approved performance-based
            compensation payments and a 2.5 percent cost of living adjustment. This action
            was taken at a time when the Authority had liquidated all of its low-income public
            housing investments and was raiding its Section 8 program to cover operating
            expenses. Shortly thereafter, during March and May of 2008, management found
            it necessary to reduce full-time employees by 59 to continue operating.
            Management then paid these employees $193,821 in excessive severance
            payments. These conditions occurred because management failed to follow its
            own policies and procedures, and its Annual Contributions Contract with HUD,
            before authorizing these expenditures.

            Among other requirements, Section 4 of the Authority’s Annual Contributions
            Contract requires it to operate its low income housing projects in an economical
            and efficient manner. Management’s decision to incur these unnecessary costs at
            a time of financial crisis did not promote economy and efficiency and placed the
            Authority in a state of non-compliance with its Annual Contributions Contract.

            Performance-Based Compensation
            In late November 2007, the former executive director authorized $213,684 in
            performance-based compensation payments for Authority staff. He justified this
            action by stating that the one-time performance-based compensation payments
            were made instead of merit pay increases to save on future salary and benefit
            expenses.

            The Authority’s policies and procedures did not require it to pay either merit pay
            increases or performance-based compensation payments, and given the
            Authority’s financial condition neither option was appropriate. The Authority’s
            personnel policy provided for payment of performance-based compensation but
            only after the executive director had determined that funds were available. The
            former executive director stated that he approved the payments after the chief
            financial officer told him that the funds were available. However, the former
            chief financial officer stated that the executive director told her to make the funds
            available, because the payments were going to be made. In either case,
            management failed to follow policy and made unnecessary compensation
            payments while it was in the midst of a financial crisis.



                                             13
Cost of Living Adjustment
The executive director authorized $189,178 in cost of living adjustments for
January 2008. The Authority’s personnel policy provided for employees to
receive a cost of living adjustment effective the first payroll period of the calendar
year provided sufficient budget authority was available.

When we asked why, at a time when the Authority was in such dire financial
condition, he authorized the 2008 cost of living adjustment, the former executive
director stated that he was told by other management staff that the adjustment was
“kind of a guaranteed thing and that you can’t really not give them.” He further
stated that he had authorized the cost of living adjustment because the chief
financial officer had told him that the funds were available. He performed no
further determination of the availability of funds. In addition, Authority staff was
unable to locate the written authorization for the payments required by the
personnel policy. Again, the former chief financial officer stated that the
executive director told her to make the funds available because the payments were
going to be made. In either case, management failed to follow policy and
unnecessarily increased costs at a time of financial crisis.

Excessive Severance Payments
The Authority’s financial condition continued to deteriorate, and in early 2008,
management began cutting staff to reduce operating expenses. Management cut
full-time staff by 26 in March and an additional 33 in May. Although this was
supposed to be a cost-cutting measure, management paid the affected employees
$193,821 in excessive severance pay. Instead of the maximum two weeks’
severance pay specified in the Authority’s personnel policy,2 management paid
affected employees a minimum of six weeks.

There is no provision in the Authority’s policies for the executive director to
exceed the two weeks cited in the personnel policy. In addition, there is no
indication that the board voted on the excessive severance payments, although the
former executive director stated that some board members were aware of the
nature of the severance payments. The former executive director further stated
that the decision to pay more than the policy required was made to provide the
affected employees a “soft landing.”




2
  Section 8.1 of the Authority’s personnel policy, dated May 1, 2007, reads in part, “Generally, at
least two (2) calendar weeks’ notice prior to discharge due to a reduction in force will be given
unless federal or state law requires otherwise. Employees who are terminated due to a reduction
in force and who do not receive at least two (2) calendar weeks’ notice will receive pay for each
day in lieu of notice up to a maximum of two (2) weeks.”

                                       14
The Authority Used HUD Funds
to Pay Ineligible Expenses
Related to Non-HUD Activities


             The Authority used $49,316 in HUD funds to pay ineligible expenses for two
             non-HUD activities, the Grove Street Center and Mayfair on Market. Section
             9(C) of the Authority’s low-income public housing annual contributions contract
             limits the use of low-income housing funds to the HUD projects covered by the
             contract. Staff time spent working on non-HUD activities or expenses paid on
             behalf of these activities must be paid from sources other than HUD funds.

             The Authority paid an estimated $20,442 for staff salaries and benefits and
             $28,874 for legal expenses associated with these non-HUD activities, using funds
             from the low-income housing general fund. This condition occurred because
             Authority staff did not allocate time and expenses to the non-HUD activities.
             Management either intentionally misused HUD funds or was unaware of the
             applicable requirements.


 Management Used Restricted
 Program Income for Employee
 Separation Pay

             On November 20, 2007, as part of an existing employment contract, the Authority
             paid a separated employee more than $49,000. Although the payment appeared
             valid, the chief financial officer directed that it be made with restricted program
             income. The program income consisted of development fees the Authority had
             earned in connection with Greenwood Terrace, a HUD mixed-finance
             development.

             Developer fees are considered by the regulations (24 CFR 85.25(a)) to be
             program income, and the Authority’s mixed-finance amendment to its
             consolidated annual contributions contract specified how it could be used.
             According to exhibit H of the amendment, program income earned as developer
             fees was to have been used either for the project or for later project phases defined
             in the revitalization plan. Upon completion of the entire revitalization plan,
             program income could be used for affordable housing purposes.




                                              15
Management Failed to Provide
the Board with Adequate
Financial Information

            Authority management failed to provide the board with adequate financial
            information. For example, during our audit period, management liquidated more
            than $4 million in investments without reporting required financial transaction
            detail to the board. This condition occurred because management (1) failed to
            follow its own procedures and (2) may have intentionally withheld negative
            financial information from the board. As a result of management’s lack of
            financial disclosure, the board’s ability to anticipate and deal with the financial
            crisis that ultimately overtook the Authority was most likely severely diminished.

            Reporting on Investments
            From January 2004 through July 2007, management liquidated more than $4
            million in low-income public housing reserves. These reserves were in the form
            of various bank certificates of deposit. Management failed to follow HUD
            requirements or its own policies and procedures for keeping the board informed
            regarding Authority investments. In addition, management failed to maintain an
            investment register and failed to timely execute an accurate general depository
            agreement.

            PIH Notice 96-33(6)(f), extended indefinitely by PIH 02-13, requires that
            investment transactions be authorized by the housing authority’s governing board
            and documented in the board minutes. This notice also requires the authority to
            maintain an investment register to document investment transactions.

            Authority policies and procedures relating to investments also require the board to
            approve investments and for the chief financial officer to maintain an investment
            register and present any change in investments to the board. Failing to maintain
            such a register and inform the board of specific changes eliminated a significant
            level of control over the Authority’s investments.

            Contrary to the above requirements, the Authority’s board minutes showed that
            the chief financial officers, employed at the time the investments were liquidated,
            gave general statements regarding the investment balances or described the use of
            investments as bringing units up to REAC standards. At no time during the
            period in question did the minutes show that the chief financial officers complied
            with the requirements for keeping the board informed regarding specific changes
            in Authority investments.

            In addition, at the time the Authority executed its latest financial management
            contract, it failed to execute a general depository agreement as required by
                                             16
Section 9(A) of the annual contributions contract. The only general depository
agreement found between the Authority and its financial institution was
incomplete and executed more than 15 months after the contract was executed.
Section 3(b) of HUD’s general depository agreement requires that a written
directive be signed on behalf of the Authority by an officer or member designated
by resolution or member of the board to sell the Authority’s securities. The
incomplete agreement had a date of August 1, 2007, eight days after the last low-
income public housing investment was liquidated. Authority staff indicated that
liquidation of the investments was handled via telephone calls to its financial
institution. Management was either unaware of the requirements or intentionally
delayed the execution of the agreement to circumvent a key internal control. Not
having an executed general depository agreement in place served to circumvent a
control which could have alerted the executive director or the board that all of the
low-income public housing reserves were being liquidated.

Reporting on Authority Finances
The former chief financial officer was hired on October 31, 2005. The former
executive director stated that he hired the chief financial officer because she was
formerly a HUD auditor and as a former HUD Office of Public Housing
employee, had acted as the Authority’s HUD financial analyst. He stated that he
relied upon her knowledge and experience with respect to financial and program
matters.

During the March 2006 board meeting, after receiving the chief financial officer’s
financial report, a board member commented that it was a vast improvement over
what they had previously received. However, soon thereafter, the board minutes
showed that financial reporting began to be delayed and the chief financial officer
gave various reasons for the delays. For example, according to the board minutes,
quarterly financial reporting was delayed from July 2006 to August 2006, and
during the September 2006 board meeting, the chief financial officer stated,
apparently without explanation, that there was no financial report. During the
October 2006 board meeting, the chief financial officer informed the board that
no quarterly financial report would be given due to moving to new offices and the
Authority’s audit. The next financial report was given during the December 2006
board meeting, and that report was not completely accurate. The chief financial
officer reported that the low-income public housing program operated at a surplus
of about $1.4 million for the year. However, contrary to this positive report, the
Authority’s 2006 audit showed that the program actually operated at almost a
half-million-dollar deficit.

During 2007, the board minutes showed that the financial reporting became even
more erratic and incomplete. No significant financial reporting was presented to
the board during five of the first seven months of 2007. More troubling was the
fact that at no time during 2007 did the former chief financial officer inform the
                                 17
board that the Authority was (1) totally liquidating its low-income public housing
investments, (2) transferring Section 8 housing assistance funds to the general
fund to cover operating expenses, (3) hiring a consultant to perform an analysis of
the Authority’s finances (or the results of the analysis), or (4) paying its
employees performance-based compensation and a 2008 cost of living
adjustment. In addition, the 2008 minutes showed that neither the executive
director nor the chief financial officer informed the board that Fannie Mae
development loan proceeds were being used to cover operating expenses.

The consolidated statement of revenue and expenses used by management to
report the Authority’s financial condition to the board tended to mask the
deterioration of the Authority’s low-income public housing program during 2007.
Because the revenue line item inaccurately reported restricted housing assistance
funds as unrestricted cash and cash equivalents, it erroneously appeared as though
both programs were financially healthy. The Authority’s low-income public
housing program ran a deficit of more than $2 million in fiscal year 2007, yet
there was no indication of an impending financial crisis from what management
was reporting to the board.

The April 2008 board minutes highlighted the board’s ignorance of the
Authority’s financial condition, as well as management’s failure to properly
financially manage the Authority. During the meeting, the chief financial officer
split apart the statements of revenue and expenses to show where each program
stood financially. When told that the low-income housing program was operating
at a $5.3 million loss (including depreciation), one commissioner asked how the
Authority had gotten into that situation and why the board had not been made
aware of the situation. Without further explanation, the chief financial officer
responded, “We are just living month to month.”

Financial Consultant Hired
Upon being hired in October 2007, the current executive director, the chief
operating officer at the time, became concerned about the Authority’s financial
health. She requested that a consultant be hired to analyze the financial condition
of the Authority. The former executive director agreed, and in late November
2007, a financial consultant was hired. In mid-December 2007, the consultant
reported that the Authority had been out of money since July 2007 and that to get
its operating expenses under control, it needed to reduce the number of full-time
employees by 66. The former executive director stated that he chose to ignore the
consultant’s suggestions after the former chief financial officer told him that the
consultant’s figures were incorrect.

A review of the board minutes showed that there was no mention of the
Authority’s having hired the financial consultant or any mention of the results of
the consultant’s financial analysis. It should also be noted that the former
                                 18
             executive director was aware of the consultant’s analysis before the
             implementation of the 2008 cost of living adjustment.

             As a result of management’s failure to report critical financial information, the
             board lacked specific information needed to make the significant changes
             necessary to ensure the financial health of the Authority.


Management Was Making
Improvements

             The current Authority management had taken action to improve operations.
             These actions included

                Reducing its staff by 64 full-time employees via three separate reductions in
                force,
                Complying with its personnel policy during the most recent reduction in force
                to allow for appropriate severance pay,
                Reporting more detailed financial information during board meetings, and
                Obtaining HUD approval for the sale of Authority-owned surplus properties to
                generate additional funds.

Conclusion


             The Authority’s financial condition had steadily declined over the past few years,
             because management failed to adequately address the cause of the decline.
             Instead, it misused HUD and Fannie Mae funds to cover excessive operating
             expenses. Management used more than $788,000 in Section 8 funds in conflict
             with HUD’s requirements and an additional $1.2 million in proceeds from a
             Fannie Mae development loan in conflict with the executed loan agreement.

             Management also paid hundreds of thousands of dollars to its employees for
             performance-based compensation and cost of living adjustments in conflict with
             its policies, gave excess severance pay to laid-off employees in conflict with its
             policies, used restricted program income to pay employee separation pay, and
             paid ineligible expenses from its general fund for non-HUD development
             activities. In addition, management failed to adequately report the Authority’s
             deteriorating financial condition to its board.

             These conditions occurred because Authority staff either intentionally misused
             HUD funds or were unaware of HUD requirements as well as the Authority’s own
             policies with respect to eligible uses of HUD funds. In addition, management
             either intentionally kept financial information from the board or was unaware of
                                              19
          HUD’s and its own requirements for reporting financial information to the board.
          As a result, the Authority had fewer funds with which to meet its mission of
          providing decent, safe, and sanitary housing.

          Although recent improvements will assist the Authority in improving its
          operations, internal controls over its financial operations must be strengthened.
          Policies and procedures must be put in place to ensure that all Authority
          employees are made aware of the controls and follow them.

Recommendations


          We recommend that you

          1A. Require the Authority to repay its Section 8 program $788,639 from its low-
              income public housing program and provide adequate documentation as
              evidence of repayment.

          1B. Require the Authority to identify the source of the funds used to pay the
              2007 performance-based compensation payments and the 2008 cost of living
              adjustment. For any such expenditure for which the source of funds was not
              a portion of the $788,639 cited in recommendation 1A, require the Authority
              to repay its low-income public housing program up to $402,862 from non-
              federal funds.

          1C. Require the Authority to repay its low-income public housing program
              $193,821 from non-federal funds for the excessive severance payments
              made during the 2008 reductions in force.

          1D. Require the Authority to repay its low-income public housing program a
              total of $49,316 from non-federal funds for the payment of ineligible non-
              HUD expenses.

          1E. Require the Authority to repay its Greenwood Terrace program income
              account $49,480 for the ineligible separation pay.

          1F. Require the Authority to not only follow current program requirements, but
              also develop and implement internal controls to ensure that HUD funds are
              expended only for eligible uses.

          1G. Require the Authority to account for its individual programs in a manner
              that permits an accurate determination of the status of specific program
              funds.

                                           20
1H. Require the Authority to follow its personnel policy when deciding to
    approve any future performance-based compensation payments, cost of
    living adjustments, and/or separation payments.

1I.   Require the Authority to begin accounting for all expenses related to non-
      HUD activities separately and pay these expenses with other than HUD
      funds.

1J.    Require Authority management to accurately report the Authority’s
      financial condition to give the board an opportunity to take appropriate and
      timely action as conditions dictate.

1K. Require the Authority to execute a complete general depository agreement
    with its financial institution to ensure that required internal controls are in
    place with respect to its financial management.




                                 21
                        SCOPE AND METHODOLOGY

Our audit objective was to determine to what extent funds subject to an annual contributions
contract were used to benefit non-HUD development activities or were otherwise inappropriately
disbursed. To accomplish our objective, we

           Reviewed applicable laws, regulations, and other HUD program requirements,
           including applicable sections of the Code of Federal Regulations, the Authority’s
           annual contributions contract, and public housing notices.
           Interviewed HUD and Authority staff (former and current).
           Reviewed agency accounting data, invoices, payroll records, financial audits, REAC
           financial recovery report, and related documents.

We conducted our audit from October 2008 through March 2009 at both the Nashville,
Tennessee, HUD office and the Authority’s central office located at 801 Holtzclaw Avenue,
Chattanooga, Tennesse. Our audit period was from October 1, 2004, through September 30,
2008. We expanded our audit period as needed to accomplish our objective.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                              22
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

       Program operations,
       Relevance and reliability of information,
       Compliance with applicable laws and regulations, and
       Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined that the following internal controls were relevant to our audit
              objectives:

                  Compliance with laws and regulations - Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

                  Safeguarding of resources - Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               23
Significant Weaknesses


           Based on our review, we believe that the following item is a significant weakness:

               The Authority did not have adequate internal controls in place to ensure that
               HUD funds were expended as required (finding 1).




                                            24
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

               Recommendation             Ineligible 1/       Unsupported 2/
                      number
                      1A                     $788,639
                      1B                                            $402,862
                      1C                      193,821
                      1D                       49,316
                      1E                       49,480                _______

                     Total                 $1,081,256               $402,862


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             25
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         26
Comment 1




Comment 1




Comment 1




            27
28
29
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority asked for a waiver from reimbursing its low-income public housing
            program from non-federal funds for ineligible expenditures. The Authority stated
            that it has very limited sources for non-federal funds. We do not agree that such a
            waiver is appropriate at this time. The Authority should work with the local
            office of Public Housing to determine the total amount of ineligible costs and
            consider the options for reimbursement.




                                            30
Appendix C

  SCHEDULE OF LIQUIDATED INVESTMENTS AND USE OF
     FUNDS – JUNE 30, 2006, THROUGH JULY 24, 2007


      Date                Amount of                Authority comments
                          investment(s) liquidated
      June 30, 2006                   $440,486.67 “3rd Payroll 6/30/06/ AP*
                                                   checks dated 6/29/06
                                                   $437,476.88”
      December 22, 2006               $578,554.03 “3rd Payroll 6/30/06/ AP
                                                   checks dated 12/22-
                                                   12/31/2006 $249,685.21”
      February 28, 2007               $388,416.54 “AP checks dated 3/1/07
                                                   $614,913.91 (TML
                                                   $166,261.00)”
      April 23, 2007                  $303,884.18 “AP checks dated 4/1-
                                                   4/30/2007
                                                   $1,786,435.14”
      July 24, 2007                   $405,141.91 “AP checks dated 7/1-
                                                   7/31/2007 $942,164.27”
      July 24, 2007                   $405,141.91 None
      Total                         $2,521, 625.24

* AP = accounts payable




                                     31
